RETAIL CHARGE AGREEMENT/ NONEGOTIABLE CONSUMER NOTE/ RETAIL INSTALLMENT CONTRACT/
CREDIT SALE CONTRACT/ RETAIL INSTALMENT CREDIT AGREEMENT/ CONSUMER PAPER/
CONSUMER CREDIT REVOLVING CHARGE ACCOUNT/ SECURITY AGREEMENT

E-UA02-R

Preferred Credit, Inc. – 628 Roosevelt Road, St. Cloud, MN 56301 ZIP Line: 877-878-1079 Customer Service: 800-972-0825

APPLICATION
NOTICE: IF YOU ARE MARRIED, YOU MAY APPLY FOR CREDIT SEPARATELY AS AN INDIVIDUAL.

PCIConsumerAccountNo.

APPLICANT – Individual, relying on your own income, unless Co-Applicant section completed

IDENTIFICATION VERIFICATION:
LastName

FirstName

MiddleInit.

DateofBirth

SocialSecurity#

HomePhone#

CellPhone#

PhysicalAddress

MonthlyGrossIncome-Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider

them in determining your credit worthiness.

EmailAddress

$

LastName

Wisconsin Residents: Include spouse’s contact information
regardless of application type
E-UA02-R

CO-APPLICANT – Joint, with another person

CO-APPLICANT INFORMATION:
IDENTIFICATION VERIFICATION:
FirstName

MiddleInit.

DateofBirth

SocialSecurity#

HomePhone#

CellPhone#

PhysicalAddress

MonthlyGrossIncome-Alimony, child support and maintenance payments need not be disclosed if you do not wish us to consider

them in determining your credit worthiness.

EmailAddress

$

1. By signing below you (a) apply for credit (joint credit if Applicant and Co-Applicant sign); (b) agree that, to the best of your knowledge, all information contained in the application above is complete
and accurate; (c) recognize that we may obtain consumer reports on you in connection with your application and may obtain and use subsequent reports in connection with an update, renewal or
extension of credit for which you may apply, and other uses not prohibited by law; (d) expressly authorize any third party (i.e. creditor, bank, or financial institution, employer, landlord, etc.) to release
whatever information that we may request concerning you; (e) agree that we may monitor and record telephone calls regarding your account for quality assurance and for other reasons not
prohibited by law; (f) expressly consent and agree to us using written, electronic or verbal means to contact you as not otherwise prohibited by law including, but not limited to, contact by manual
calling methods, prerecorded or artificial voice messages, text messages, emails, and/or automatic dialing systems and do so using any email address, or telephone number you provide, now or
in the future, including a number for a mobile phone or other wireless device regardless of whether you may incur charges as a result; (g) acknowledge that the terms and conditions of this
Agreement are subject to credit approval; (h) acknowledge that Interest Charges will be imposed in amounts or rates not in excess of those permitted by law; (i) grant us a purchase money
security interest in any goods (any goods over $200 in New York) you purchase under this Agreement which are described in any order, invoice or similar document issued by the Seller (as
provided below) which becomes part of this Agreement; (j) acknowledge that this instrument is not negotiable; and (k) acknowledge that you are receiving the Retail Charge Agreement: Additional
Terms and Disclosures. The Additional Terms and Disclosures are in effect on the date of execution and incorporated herein.
2. Where Delaware is the Applicable Law: Service charges not in excess of those permitted by law will be charged on the outstanding balances from month to month.
3. Where Wisconsin is the Applicable Law: No provision of a marital property agreement, a unilateral statement under Wis. Stat. Ann. §766.59, or a court decree under Wis. Stat. Ann. §766.70
adversely affects Seller’s interest unless the Seller, prior to the time credit is granted, is furnished with a copy of the agreement, statement, or decree or has actual knowledge of the adverse
provision when the obligation to Seller is incurred.
4. Where Connecticut is the Applicable Law: By signing below, you acknowledge that you have read Paragraph 9 of this Agreement and have been informed of the
consequences of failing to make the first or any future deferred or promotional installment payment in a timely manner.
NOTICE TO THE BUYER: (1) Do not sign this agreement if any of the spaces intended for the agreed
Your signature(s) below mean that
terms are left blank. (2) You are entitled to a copy of this agreement at the time you sign it. (3) You may at (a) you have read and understand the terms and conditions as set forth
any time pay off the full unpaid balance under this agreement. 4) If you desire to pay off in advance the on all 6 pages of this Agreement;
full amount due, the amount which is outstanding will be furnished upon request. (5) You may under
(b) you agree to the terms of this Agreement; and
certain circumstances redeem the property, if repossessed because of your default, and you may,
(c) you will pay any advances made under this Agreement according to
under certain conditions, require a resale of the property if repossessed. (6) The seller has no right to
its terms.
unlawfully enter your premises or commit any breach of the peace to repossess goods purchased
under this agreement. Your signatures below mean that you have received a completely filled in copy
of this Agreement. Keep this Agreement to protect your legal rights.
CAUTION- IT IS IMPORTANT THAT YOU THOROUGHLY READ THE CONTRACT BEFORE YOU
SIGN IT.
Where Hawaii is the Applicable Law: This contract is covered by Hawaii’s credit sale law, and you have
rights of a buyer under that law. You also may have other rights under other state and federal law.
CREDIT SALE CONTRACT/RETAIL INSTALMENT CREDIT AGREEMENT

X

Applicant/Buyer’sSignature

X

Co-Applicant/Co-Buyer’sSignature
SELLER:
CompanyName:

SALE:
Consultant:

Address:

PCIClientNo.:

Date

X

Date

X

Applicant/Buyer’sSignature

Seller’sInitials:

Co-Applicant/Co-Buyer’sSignature
PROMOTIONALCREDITPLAN(ifapplicable):

THIS DOCUMENT IS SUBJECT TO A SECURITY INTEREST IN FAVOR OF US BANK NATIONAL ASSOCIATION.
REVISED 10-1-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited .

E-UA02-R
Page 1 of 6

RETAIL CHARGE AGREEMENT: ADDITIONAL TERMS AND DISCLOSURES
IMPORTANT INFORMATION ABOUT PROCEDURES FOR OPENING A NEW ACCOUNT - To help the government fight the funding of terrorism and money laundering activities, Federal
law requires all financial institutions to obtain, verify, and record information that identifies each person who opens an account. What this means for you: When you open an account, we will ask for
your name, address, date of birth, and other information that will allow us to identify you. We may also ask to see your driver's license or other identifying documents.

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
How to Avoid Paying Interest
Minimum Interest Charge

For Credit Card Tips from the Consumer
Financial Protection Bureau

Fees

17% 21.99%.

Varies by State, from
to
See your account agreement for more details.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if you pay your entire
balance by the due date each month or such time as Applicable Law allows. See your account agreement for more details.
If you are charged interest the charge will be no less than an amount that varies by State between $0.00 and $4.76. See your account
agreement for more details.
To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

Transaction Fees
None.
Penalty Fees
• Late Payment
Varies by State, from (a) $0 to (b) up to $35. See your account agreement for more details.
• Return Payment
Varies by State, from (a) $0 to (b) up to $35. See your account agreement for more details.
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)” unless Applicable Law does not prohibit a method called the “daily balance
method.” See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
1. Definitions: In this Retail Charge Agreement (“Agreement”): The word “Account” refers to the account that is established with the Seller, and their successors or assigns, that is the subject of this
Agreement. The words “you” and “your” refer to each individual who signs the Application for the Account, and who is authorized to use the Account. The words “we,” “us” and “our” refer to the
Seller, and any assignee of the Seller. The words “Acceptable Documentation” shall refer to Purchase Orders, phone orders, or orders from our website, so long as such orders are signed
(physically or electronically) or otherwise verbally or electronically authenticated. The words “Applicable Law” shall mean federal law and the laws of the state, commonwealth, district, or territory of
your residence, as indicated in the “Applicant” portion of your application for this Account (if Maryland, you and we agree that Maryland law includes specifically Title 12, Subtitle 9, Maryland
Commercial Law Article-Credit Grantor Revolving Credit Provisions) and the state in which this account is operated. You and we agree that these Applicable Laws apply to this Agreement. The
words “Purchase Order” refer to the document describing the type, quantity and agreed price of merchandise you buy from the Seller.
2. Account: This Agreement applies to your retail charge purchase of goods and services from us. The amount of your initial purchase from Seller will govern the amount of the initial credit limit on
your Account, which will be set at a higher amount than the cost of the goods purchased based on our expectation that you will use the Account to make additional purchases. You may make addon purchases from the Seller or Seller's assigns which will be evidenced by Acceptable Documentation. Acceptable Documentation must provide the cash price of the merchandise purchased. By
signing future Acceptable Documentation you agree those purchases thereby confirmed will be subject to this Agreement. You agree that add-on orders which exceed the credit limit established
with your initial order are subject to credit approval. We reserve the right to deny authorization for any requested credit limit increase.
3. Promise to Pay: In return for extending credit to you on this Account from time to time, each of you agrees to pay for all purchases any of you charge on this Account, and all other charges
mentioned below, according to the terms of this Agreement. When you sign the Application for this Account, you will be agreeing to the terms and conditions in this Agreement, which include the
cost of credit disclosures required by Applicable Law. This Agreement will not be effective until we approve your Application, and we or our assignee provides any disclosures required by the federal
Truth in Lending Act, and then, after that, only if you or someone authorized by you sign a Purchase Order or otherwise charge a purchase to this Account and we extend credit for that purchase.
4. Billing: You will be billed monthly for credit purchases from us, as shown on a Purchase Order signed by you (or completed at your direction), and for any previous unpaid balance as required
by Applicable Law. You will receive a monthly periodic statement of account for any month in which you have an outstanding balance of more than $1.00 or on which an Interest Charge has been
imposed. In Alaska, Illinois, Michigan, Missouri, Nebraska, Nevada, New Mexico, North Dakota, Ohio, Oklahoma, Oregon, Tennessee, Texas, Vermont or Washington, you will receive a monthly
periodic statement of account if you have an outstanding balance. In Delaware and Kentucky, you will receive a monthly periodic statement of account. Your monthly periodic statement of account
will show your new unpaid balance, any new purchases you have made since your last monthly periodic statement of account, and your Minimum Monthly Payment. Your credit limit will also be
shown on your monthly periodic statement of account. In Kentucky, your monthly periodic statement of account will show the unpaid balance due under this Agreement at the beginning and at the
end of the month, a description of the goods or services purchased during the month, including the cash price and date of each purchase, the amount, if any, of any Interest Charges for such
month, and a notice to the effect that you may pay the outstanding balance in full or in part at any time.
5. Payment: You have the right to pay your entire balance in full or more than the Minimum Monthly Payment at any time. Otherwise, you agree to pay at least the Minimum Monthly
Payment, which includes Interest Charges. You must make payment in U.S. Dollars, with a draft, money order, or check drawn on a U.S. Bank or the U.S. Post Office. We may accept late
payment, partial payments, or any payments marked "payment in full," without losing any of our rights under this Agreement or Applicable Law.
6. Interest Charges: Unless you are offered a Promotional Credit Plan as described below, and as not prohibited by Applicable Law, Interest Charges will begin to accrue upon delivery of the
merchandise you purchase. Delivery occurs upon the earlier of the date of shipment of the merchandise, or the date of hand delivery of the merchandise. No Interest Charges will be imposed on
new purchases, however, if: (a) there was no outstanding balance under your Account at the beginning of the billing period in which the purchase was made (which includes the period in which you
make your initial purchase of merchandise under this Agreement), and (b) you pay off your Account in full by the payment due date reflected in the monthly periodic statement of account for that
billing period (or in Maine, 25 days after closing date of billing cycle)(though no payment may be due). We figure the Interest Charge on your Account by applying a daily periodic rate to the "average
daily balance" of your Account (including current transactions) and multiplying the result by the number of days in the billing period. To get the "average daily balance" we take the beginning balance
of your Account each day, add any new purchases, and subtract any payments or credits. This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide the
total by the number of days in the billing cycle. This gives us the “average daily balance.” Your daily periodic rate and the corresponding Annual Percentage Rate are indicated in the chart below.
The daily periodic rate will be the annual rate divided by 365 (366 in a leap year). In Ohio, the applicable Interest Charge will not exceed 1 ½% a month.
Applicable
Daily
Corresponding
By your initial(s) below, you hereby
Law
Periodic Rate
ANNUAL PERCENTAGE RATE acknowledge Interest Charges will be
imposed in amounts or rates not to
AR
0.0466%
17%
exceed those in the chart to the left.
AL, CT, GU, ME, MA, MN, MP, NE, NC, OH, TX, WV
0.0493%
18%
HI
0.0521%
19%
CO, GA, IN, LA, MS, OK, TN, VT, WY
0.0575%
21%
________________ _______________
AK, AZ, DE, ID, IA, IL, KS, KY, MD, MI, MO, MT, NH, ND, NM,
0.0603%
21.99%
Buyer
Co-Buyer
NV, NJ, NY, OR, PA, RI, SC, SD, UT, VA, WA, WI
Notwithstanding the above, in Alabama, Arkansas, Colorado, Delaware, Georgia, Hawaii, Idaho, Illinois, Kentucky, Michigan, Nevada, New Hampshire, North Dakota, Oregon, Tennessee,
Virginia, Vermont and Washington, we figure the Interest Charge on your Account by applying the daily periodic rate to the “daily balance” of your account for each day in the billing cycle. To
determine the daily balance, we take the beginning balance each day, add any new charges posted that day, and subtract any payments and credits posted that day. This gives us the daily
balance. Then, we calculate the amount of interest charged by multiplying the applicable daily periodic rate by each daily balance on your account. Your Interest Charge for the billing cycle is the
sum of the interest amounts that were charged each day during the billing cycle. In Michigan, the Annual Percentage Rate indicated in the above chart is the maximum amount and rate of the time
price differential to be charged and paid under this Agreement. Notwithstanding the above, in Minnesota, the calculation of the average daily balance will be made by excluding from the daily
balances the amount of each sale from the date until the last day of the regular billing cycle during which the sale was made. Notwithstanding the above, if we receive payment in full of the
outstanding balance of your Account, as shown on the billing statement, within 25 days after the end of that billing period, we will not impose Interest Charges for the current billing period.
Notwithstanding the above, in Virginia, if we receive payment in full for the unpaid balance on your Account prior to the date we next send a billing statement, no additional Interest Charges will be
imposed for the current billing period. Notwithstanding the above, in Mississippi, if we receive payment in full for the outstanding balance of your Account, as shown on the billing statement, within
Page 2 of 6

one month from the date of the billing statement, we will not impose Interest Charges on the new purchases appearing on that billing statement. The portion of any balance arising from the sale of
goods which are returned will be excluded from the unpaid balance as of the date the goods are returned.
7. Minimum Monthly Interest Charge: As not prohibited by Applicable Law, if the Interest Charge that results from the application of the above stated daily periodic rate (the "Calculated Interest
Charge"), is less than $0.50, we will impose a minimum monthly INTEREST CHARGE of $0.50. In Michigan, Missouri, New York and Tennessee, if the Calculated Interest Charge is less than
$0.70, we will impose a minimum monthly INTEREST CHARGE of $0.70. In Delaware, Georgia, Ohio, Pennsylvania and Washington, if the Calculated Interest Charge is less than $1.00, we will
impose a minimum monthly INTEREST CHARGE of $1.00. In Guam and the Northern Mariana Islands, if there is an unpaid balance on the date of which the Interest Charge is applied and the
Interest Charge is less than the Minimum Monthly Charge, a minimum charge not exceeding $4.76 will be made. In Texas, if the Interest Charge that results from the application of the above stated
daily periodic rate is less than $0.75, we will impose a minimum monthly INTEREST CHARGE of $0.75, as not prohibited by Applicable Law. In Hawaii, Kentucky, Maryland, Nebraska and North
Carolina, we will not impose a minimum monthly Interest Charge
8. Minimum Monthly Payment: You will make payments of at least the total Minimum Monthly Payment each month as required by our monthly periodic statements of account. Your total
Minimum Monthly Payment will consist of: (1) any past due amounts, and (2) a regularly scheduled Minimum Monthly Payment. The regularly scheduled Minimum Monthly Payment will be equal
to the greater of: (a) the regularly scheduled Minimum Monthly Payment shown on your Purchase Order; (b) $25.00; or (c) 2.50% of the Account balance immediately following the first or any
subsequent purchase on your Account.
9. Promotional Credit Plans: In addition to purchases that accrue Interest Charges and require monthly payments as described previously in this Agreement, as part of this Account, Promotional
Credit Plans may be offered from time to time on specific additional purchases for qualified buyers. Purchases made under these Promotional Credit Plans may have different interest charge
calculations and required minimum payments. A Promotional Credit Plan is strictly limited by its terms and the terms and conditions of the special promotion to which it relates. In addition, the
benefits of a Promotional Credit Plan will expire and all accrued Interest Charges in these plans will be added to your Account if you fail to pay the promotional balance by the end
of the promotional period or you are in default for a period of 60 or more days during the promotional period. In addition, if any required payment on your Account is not made on
time, you will owe a late fee (as described in Paragraph 11 below) and we may exercise our rights described in Paragraph 13 below. The special promotions that may be offered include:
9.a. Same as Cash Plan: If you pay the full purchase price before the expiration date of a Same as Cash Plan, as indicated on your monthly periodic statement of account, and pay the Minimum
Monthly Payment each billing period when due, no Interest Charges will be imposed on the purchase. If such payments are not made, Interest Charges from the date of delivery will be
added to your Account either when you fail to make a payment within 60 days of the due date or, at the end of the Same as Cash Plan period, calculated at the rate and in the
manner described in Paragraph 6 above for regular non-promotional purchases.
9.a.1. How Payments Are Applied When Same as Cash Plan Is In Effect: Unless otherwise required by Applicable Law, during the two billing cycles immediately preceding expiration of the
Same as Cash Plan period, any amount paid in excess of the minimum payment due will be allocated first to the balance subject to the Same as Cash Plan and any remaining
portion to any other balances. We may offer Same as Cash Plan periods of 6 months, 9 months, 12 months or of different lengths that we will announce from time to time.
10. Application of Payments: Unless otherwise required by Applicable Law, payments except down payments, shall be applied first to past due Minimum Monthly Payments, beginning with the
oldest, then to the current Minimum Monthly Payment, and then to other unpaid late fees, costs and fees arising under this Agreement. In Colorado and Indiana: For purposes of assessing
delinquency charges, payments first will be applied to the current payment due in the payment period in which the payment is received and then to delinquent installments. Mississippi: Payments
will first be applied to any finance charge, next to repayment of cash advanced or other credit extended, and finally to the chronological repayment of purchases. Arkansas: Partial payments will be
applied first to any accrued Interest Charges.
11. Other Charges:
11.a. Late Fees: Except in Delaware, Guam, New Mexico, the Northern Mariana Islands and Vermont, you will pay the maximum late fee allowed (which you agree we will add to the balance due
on your Account) for payments not made on time, calculated as Applicable Law allows. Except in Alaska, Arkansas (5 days), Iowa, Maine (15 days), Maryland, Massachusetts (15 days), Nevada,
North Carolina (30 days), Oregon, Pennsylvania, Rhode Island (40 days), Texas (21 days) and Virginia (7 days), the statutory time period for the imposition of a Late Fee is 10 days after the due
date (“Due Date”) for each payment not received on the scheduled Due Date. Currently, Applicable Law provides for the late fees provided in the table below:
AZ, KS, MO
$10, $5 when the monthly payment is less than $25
NC
$5 on accounts having an outstanding balance of less than $100; $10 on accounts having an outstanding balance of $100 or more
NJ, TX
$10
RI
$12
CO
$15
AK, MD, MI, MS, NV, NH, NY, ND, OR, PA, SD, TN, WI
$20
GA, IN (The amount of the late fee is subject to change as allowed by Ind. Code §24-4.5-1-106.), NH, ND, WA
$25
IA
$30
CT (maximum $10), HI (maximum $50), IL (minimum $10), KY (minimum $10), MN (minimum $8.56), NE (minimum $5.00), VA
5% of the installment
AL (minimum $18, maximum $100), AR (maximum $5.00), ID (minimum $15), LA (minimum $10), ME (maximum $10), OH (maximum
5% of the unpaid amount
$3.00), OK (minimum $26.00), SC (minimum $7.40, maximum $18.50), UT (minimum $30), WV (maximum $30), WY (minimum $10)
of the installment
MA (maximum $10)
10% of the unpaid amount of the installment
MT
15% of the installment
Notwithstanding anything to the contrary above, if the late fee as calculated above would exceed $25, you will not be charged more than $25 for the first violation, or $35 for any violation occurring
within six billing cycles of a previous late payment. In addition, regardless of the amounts reflected above, you will not be charged more than the amount of the required minimum periodic payment
due immediately prior to the assessment of the late payment fee.
11.b. Returned Check Charge: Except in Massachusetts, Nebraska, New Mexico, Pennsylvania and Wyoming, you will pay a returned check charge (except in Guam and the Northern
Mariana Islands, which you agree we will add to the balance due on your Account) if any check, negotiable order of withdrawal, share draft, or item you give us for payment under the Agreement is
dishonored for any reason by the bank or other institution on which it is drawn. We will impose the maximum returned check charge as Applicable Law allows of which the current returned check
charge is provided in the table below:
ME, VT
Bank Charge Only
KS
$10
MD (on the second presentment), MO (plus bank charges)
$15
CT, ID, NJ, NY, UT
$20
AZ (plus bank charges), CO, GU, IL, IN, MI ($35 if not paid within 7 days of notice of dishonor), MP, NC, NV, OK, RI, WI, WV
$25
AL, AR (plus bank charges), HI, IA, MN, MT, OH, SC, TN, TX
$30
AK, DE, KY, MS (a separate demand will be made), NH, ND, OR, SD, VA, WA
$35
GA (minimum $30 plus bank charges), LA (minimum $25)
5% of the amount of the check
Notwithstanding anything to the contrary above, if the returned check charge as calculated above would exceed $25, you will not be charged more than $25 for the first violation, or $35 for any
violation occurring within six billing cycles of a previously dishonored payment. In addition, regardless of the amounts reflected above, you will not be charged more than the amount of the required
minimum periodic payment due immediately prior to the date on which the payment is returned or otherwise dishonored.
11.c. Phone Payment Processing Fee: Except in Colorado, Delaware, Guam, Illinois, Indiana, Kansas, Kentucky, Massachusetts, New York, the Northern Mariana Islands, North Carolina,
Texas, Vermont and Wisconsin, you will pay the current phone payment processing fee (which you agree we will add to the balance due on your Account) for each expedited payment you make
by phone. Except in Iowa ($6), the current phone payment processing fee is $11.75.
12. Security Agreement: You grant us a purchase money security interest in each household good (in New York, goods over $200) purchased with this Account (“Goods”) to the full extent not
prohibited by Applicable Law (including the Uniform Commercial Code). You will, on request, take all reasonable actions requested by us to preserve and protect the Goods and our security
interest in the Goods. You also agree to take all reasonable actions requested by us to establish, determine the priority of, perfect, continue the perfection of, terminate or enforce our security interest
in the Goods and our rights under this Agreement. In addition to other rights we may have under this Agreement, if you do not make payments as agreed, this security interest allows us to take
actions not prohibited by Applicable Law governing security interests in the Goods. You also agree to keep the Goods installed at the address you provided in your credit application and to not
remove or alter the Goods without our prior written consent. You may lose the Goods if you do not meet your obligations to us under this Agreement.
13. Default: If you fail to make any payment when due, or if the prospect of your payment, performance, or our realization of collateral is significantly impaired, to the extent not prohibited by
Page 3 of 6

Applicable Law, and subject to any notice of default and opportunity to cure required by Applicable Law, we may declare the full remaining balance immediately due and payable. We may also
repossess any article of merchandise in which we retain a security interest if we do so peacefully and the law allows it. Notwithstanding the preceding provisions, in the event of a late payment or
nonpayment, we will not declare the full remaining balance immediately due and payable or repossess any article of merchandise if, within the applicable grace period identified in Paragraph 11
above, we receive payment together with any late fees. If you fail to pay within the applicable grace period, we may, at our option, declare the full remaining balance immediately due and payable, to
the extent permitted by Applicable Law. Unless we are required by Applicable Law to provide you a notice of default and a right to cure, you agree that we do not have to give you notice that we
intend to demand or are demanding immediate payment of all you owe. If the Account is referred to an attorney who is not our salaried employee and we bring suit against you to collect the amount
you owe and we are the prevailing party, you agree to pay our reasonable attorneys’ fees and court costs as not prohibited by Applicable Law. In Wisconsin: If we obtain a court judgment against
you for default under this Agreement, we may request an award of statutory costs and statutory attorney fees pursuant to section 814.04 of the Wisconsin Statutes. If our request is granted, you will
be required to pay these fees. In Alabama, Colorado, Connecticut, Guam, Kansas, Missouri, Montana, Oklahoma and South Carolina, attorneys’ fees for collection will not exceed 15%, 20% in
New York and 25% in Louisiana, of the unpaid debt. In New Jersey, attorney’s fees for collection will not exceed 20% of the first $500 of the unpaid debt and 10% on any unpaid debt in excess of
$500. In Alabama, you will not have to pay attorney’s fees after default if the unpaid balance at the time of default is $300 or less. In Ohio, you will not have to pay attorney’s fees for collection unless
authorized by a court. In New Hampshire, if you prevail in any action, suit or proceeding we bring or in an action you bring, reasonable attorney’s fees shall be awarded to you. If you successfully
assert a partial defense, setoff, recoupment or counterclaim to an action brought by us, the court may withhold from us the entire amount or such portion of the attorney’s fees as the court deems
appropriate. You also agree to pay our collection costs and costs incurred in taking the collateral, holding it, preparing it for sale, and selling it, as not prohibited by Applicable Law. In Iowa, Kentucky,
Nebraska and North Dakota, you will not have to pay attorney’s fees. In Maine and West Virginia, you will not pay attorney’s fees or collection costs, other than reasonable charges we incur to
realize on our security interest in the Goods (other than attorney’s fees). Notwithstanding anything to the contrary above, in Wisconsin, if you have not paid the required minimum payment when due
on two occasions within any 12-month period, or if you breach a covenant that materially impairs the condition, value or protection of or our right to collateral secured under this Agreement or
materially impairs your ability to pay amounts you owe us, you will be in default. In addition, after we have given you notice of your right to cure the default (where applicable) and after we have
waited the appropriate number of days under Wisconsin law, we may declare the remaining balance due and payable and we may commence legal action to recover the merchandise.
14. Canceling or Reducing Your Credit Limit: We have the right at any time to limit or terminate the use of your Account and raise or lower your credit limit without giving you advance notice.
Some purchases will require prior authorization, in which case you may be asked to provide identification. If our authorizations system is unavailable, we may not be able to authorize a transaction,
even if you have sufficient credit. We will not be liable to you if this happens. We are not responsible for the refusal of anyone to accept or honor an addition to this Account. In addition, even if you
cancel the use of your Account, you are still responsible for any Account balances incurred by an authorized user that remain unpaid.
15. Change in Terms: You agree that we may amend the terms of this Agreement, subject to any notice required by Applicable Law. To the extent not prohibited by Applicable Law, any new
terms may be applied to any balance existing on the Account at the time of the change, as well as subsequent transactions.

16. No Verbal or Oral Modifications: Except in Connecticut, you agree that we are not bound by any verbal or oral agreements or verbal or oral
modifications to this Agreement.

17. Delay in Taking Action: We will not lose any of our rights under this Agreement if we delay taking action for any reason. To the extent not prohibited by Applicable Law, we may take other
action not described in this Agreement, and by doing so will not lose our rights under this Agreement.
18. Severability: To the extent not prohibited by Applicable Law, including the Wisconsin Consumer Act, if any provision of this Agreement is found to be unenforceable, all other provisions shall
remain in full force and effect.
19. Applicable Law: The law that applies to this Agreement is defined in this Agreement at paragraph 1. Definitions.
20. Telephone Recording: You understand and agree that for our mutual protection, we may electronically record any of your telephone conversations conducted with Seller or Seller's assigns,
including Preferred Credit, Inc. (PCI), without further notice to the parties to such conversations. These telephone conversations include all conversations between you and Seller or Seller's assigns
communicated via traditional telephone wire and wireless devices such as cordless and cellular phones. You acknowledge and consent to the retention of and use of such recordings by Seller or
Seller's assigns, their employees, representatives and agents of all information and data obtained in any recorded conversation for purposes of settling disputes as well as for ongoing quality
assurance programs.
21. Communications: You expressly authorize us or our agents to contact you at any phone number (including mobile, cellular/wireless, or similar devices), fax number, or email address, you
provide at any time, for any lawful purpose. The ways in which we may contact you include live operator, automatic telephone dialing systems (auto-dialer), prerecorded message, text message,
fax, or email. Such lawful purposes include, but are not limited to: obtaining information; account transactions or servicing-related matters; suspected fraud or identity theft; collection on the Account;
and providing information about special products and services. You agree to pay any fee(s) or charge(s) that you may incur for incoming communications from us or outgoing communications to
us, to or from any such number, or email address, without reimbursement from us.
22. Credit Investigation and Reporting: You agree that we may investigate your credit in connection with the initial extension, review, or collection of your Account. You agree that we may
examine employment and income records, verify your credit references, and report to credit reporting agencies, merchants, and other creditors the status and payment history of your Account. A
negative credit report may be submitted to a credit reporting agency if you fail to fulfill the terms of your credit obligations.
Please see Applicable Law for the following disclosures:
Where Connecticut is the Applicable Law: Insurance, if any, included in this Agreement does not provide coverage for personal liability and property damage caused to others.
Where Arizona is the Applicable Law: NOTICE: BY GIVING US A SECURITY INTEREST IN THE MERCHANDISE, YOU WAIVE ALL RIGHTS PROVIDED BY LAW TO CLAIM THE
PROPERTY EXEMPT FROM LEGAL PROCESS.
Colorado Notice to Cosigner
You are being asked to guarantee this debt. Think carefully before you do. If the borrower doesn't pay the debt, you will have to. Be sure you can afford to pay if you have to, and that you want to
accept this responsibility.
You may have to pay up to the full amount of the debt if the borrower does not pay. You may also have to pay late fees or collection costs, which increase this amount.
The creditor can collect this debt from you without first trying to collect from the borrower. The creditor can use the same collection methods against you that can be used against the borrower, such
as suing you, garnishing your wages, etc. If this debt is ever in default, that fact may become a part of your credit record.
This notice is not the contract that makes you liable for the debt.
Oral agreements or commitments to loan money, extend credit or forbear from enforcing repayment of a debt including promises to extend or renew such debt are not
enforceable. To protect you (borrower(s)) and us (creditor) from misunderstanding or disappointment, any agreements we reach covering such matters are contained in this
writing, which is the complete and exclusive statement of the agreement between us, except as we may later agree in writing to modify it.
Where Pennsylvania is the Applicable Law: NOTICE: Any holder of this consumer credit contract is subject to all claims and defenses which the debtor could assert against the
seller of goods or services obtained with the proceeds hereof. Recovery hereunder by the debtor shall not exceed amount paid by the debtor hereunder.
Where Louisiana is the Applicable Law: If you default, we may choose to institute executory, ordinary, or other legal proceedings to have the articles of merchandise taken from you and sold to
satisfy your obligations to us. You confess judgment in favor of us for the full amount you owe under this Agreement for purposes of Louisiana’s executory process procedures, and consent to a
judgment being rendered and signed in our favor for that amount. To the extent permitted by law, you waive any benefits of an appraisal of the articles of merchandise and other rights under Articles
2331, 2332, 2336, 2722, 2723, and 2724 of the Louisiana Code of Civil Procedures when the articles of merchandise is sold under executory process or other legal process, and any other law that
may give you similar rights and benefits. You also authorize us to serve as keeper or appoint a keeper if the articles of merchandise is taken from you through legal proceedings. If you owe us a
deficiency, you may be charged interest at the Annual Percentage Rate or the highest lawful rate until you pay us all that you owe.
Where Texas is the Applicable Law: For questions or complaints about this Contract, contact Preferred Credit, Inc. at (800) 972-0825 or www.preferredcredit.com. The Office of Consumer Credit
Commissioner (OCCC) is a state agency, and it enforces certain laws that apply to this Contract. If a complaint or question cannot be resolved by contacting the creditor, consumer can contact the
OCCC to file a complaint or ask a general credit-related question. OCCC address: 2601 N. Lamar Blvd., Austin, Texas 78705. Phone: (800) 538-1579. Fax: (512) 936-7610. Website:
occc.texas.gov. E-Mail: consumer.complaints@occc.texas.gov.
Where Ohio is the Applicable Law: The Ohio laws against discrimination require that all creditors make credit equally available to all creditworthy customers, and that credit reporting agencies
maintain separate credit histories on each individual upon request. The Ohio Civil Rights Commission administers compliance with this law.
Page 4 of 6

Where Vermont is the Applicable Law: NOTICE TO CO-SIGNER: YOUR SIGNATURE ON THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS
LOAN. IF THE BORROWER DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.
ARBITRATION PROVISION
Except in New Jersey and Wisconsin, this Arbitration Provision significantly affects your rights in any dispute with us. Please read this Arbitration Provision carefully before you
sign it.
1. EITHER YOU OR WE MAY CHOOSE TO HAVE ANY DISPUTE BETWEEN US DECIDED BY ARBITRATION AND NOT IN COURT.
2. IF A DISPUTE IS ARBITRATED, YOU AND WE WILL EACH GIVE UP OUR RIGHT TO A TRIAL BY THE COURT OR A JURY TRIAL.
3. IF A DISPUTE IS ARBITRATED, YOU WILL GIVE UP YOUR RIGHT TO PARTICIPATE AS A CLASS REPRESENTATIVE OR CLASS MEMBER ON ANY CLASS CLAIM YOU
MAY HAVE AGAINST US.
4. THE INFORMATION YOU AND WE MAY OBTAIN IN DISCOVERY FROM EACH OTHER IN ARBITRATION IS GENERALLY MORE LIMITED THAN IN A LAWSUIT.
5. OTHER RIGHTS THAT YOU AND WE WOULD HAVE IN COURT MAY NOT BE AVAILABLE IN ARBITRATION.
6. EVEN IF A DISPUTE IS ARBITRATED, WE CAN STILL REPOSSESS YOUR MERCHANDISE IF YOU DO NOT HONOR YOUR AGREEMENT AND YOU OR WE MAY SEEK
PROVISIONAL REMEDIES FROM A COURT.
Any claim or dispute, whether in contract, tort or otherwise (including the interpretation and scope of this clause and the arbitrability of any issue), between you and us or our employees, agents,
successors or assigns, which arises out of or relates in any manner to the purchase and financing of the merchandise under the Agreement or any resulting transaction or relationship (including any
such relationship with third parties who do not sign the Agreement) shall, at your or our election (or the election of any such third party), be resolved by neutral, binding arbitration and not by a court
action. Any claim or dispute is to be arbitrated on an individual basis and not as a class action, and you expressly waive any right you may have to arbitrate a class action (this is called the
"class action waiver"). You may choose the applicable rules of either the American Arbitration Association (1-800-778-7879), JAMS (800-352-5267) or any other nationally recognized arbitration
organization, subject to our approval, and if the arbitration organization selected by you is unwilling to serve, we shall select the arbitration organization. We waive the right to require you to arbitrate
an individual (as opposed to a class) claim if the amount you seek to recover, including attorneys' fees and expenses, is less than $7,500 or the maximum jurisdiction the venue of a state court
providing for the resolution of small claims. You may obtain a copy of the rules of these organizations by calling the numbers indicated or by visiting their web sites.
The arbitrators shall be attorneys or retired judges and shall be selected in accordance with the applicable rules. The arbitration award shall be in writing, but without a supporting opinion. The
arbitration hearing shall be conducted in the federal district in which you reside. If you demand arbitration first, you will pay one half of any arbitration filing fee. We will pay the rest of the filing fee, and
the whole filing fee if we demand arbitration first or if the arbitrator determines that applicable law requires us to do so or that you are unable to do so or that we must do so in order for this Arbitration
Provision to be enforceable. We will pay the arbitration costs and fees for the first day of arbitration, up to a maximum of eight hours. We will also pay any fees and charges that the arbitrator
determines that we must pay in order to assure that this Arbitration Provision is enforceable. The arbitrator shall decide who shall pay any additional costs and fees.
The arbitrator's award shall be final and binding on all parties, except in the event where either there is a “take nothing” award or the award is in excess of $100,000 either party may request a new
arbitration under the rules of the arbitration organization by a three-arbitrator panel.
This Arbitration Provision relates to a contract that evidences a transaction involving interstate commerce. Any arbitration under this Arbitration Provision shall be governed by the Federal Arbitration
Act (9 U.S.C. §§ 1 et seq.). If a court should determine that the transaction did not involve interstate commerce, the parties agree that this Arbitration Provision shall be governed by state law.
If any part of this Arbitration Provision other than the Class Action Waiver is found by a court or arbitrator to be unenforceable, the remainder shall be enforceable. This Arbitration Provision shall
survive the termination of any contractual agreement between you and us, whether by default or repayment in full.
You may elect to opt-out of the arbitration provision only by notifying us in writing at Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301 within 30 days from the date in which you
signed this Agreement, and including in the notice your name, address and account number and a clear statement that you do not wish to resolve disputes through arbitration. No one else may
sign the rejection notice for you. Your rejection notice also must not be sent with any other correspondence. Rejection of arbitration will not affect your other rights or responsibilities under this
Agreement. If you reject arbitration, neither you nor we will be subject to the arbitration provisions for this Agreement. Rejection of arbitration for this Agreement will not constitute rejection of any prior
or future arbitration provision between you and us.
Your Billing Rights. Keep This Notice For Future Use. This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on the amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with the applicable interest and fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases:
If you are dissatisfied with the goods or services that you have purchased with your Account and you have tried in good faith to correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
Page 5 of 6

2. You must have used your Account for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at: Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.
NOTICE: ANY HOLDER OF THIS CONSUMER CREDIT CONTRACT IS SUBJECT TO ALL CLAIMS AND DEFENSES WHICH THE DEBTOR COULD ASSERT AGAINST THE
SELLER OF GOODS OR SERVICES OBTAINED PURSUANT HERETO OR WITH THE PROCEEDS HEREOF. RECOVERY HEREUNDER BY THE DEBTOR SHALL NOT
EXCEED AMOUNTS PAID BY THE DEBTOR HEREUNDER.

ASSIGNMENT – OFFICE USE ONLY

Assignment by Seller: For Value Received: Seller sells and assigns this Retail Charge Agreement (the “Agreement”) to Preferred Credit, Inc., 628 Roosevelt Road, St. Cloud, MN 56301, the
assignee, its successors and assigns, including all of Seller’s rights, title, and interest in this Agreement. Assignee has full power to take all legal and other actions, which Seller could have taken
under this Agreement. The undersigned acknowledges that this Assignment incorporates by reference the terms of the Finance Agreement between the undersigned and Preferred Credit, Inc.
including but not limited to the representations, warranties, liabilities, conditions and obligations of the undersigned contained therein.

(Corporate, Firm or Trade Name of Seller)

X

(Owner, Officer or Firm Member)

REVISED 10-1-2019
© 1990-2019 Preferred Credit, Inc. ALL RIGHTS RESERVED. Duplication of this document without the copyright owner’s prior written consent is strictly prohibited.

E-UA02-R
Page 6 of 6

AUTHORIZATION FOR PREAUTHORIZED PAYMENTS
By signing below, I hereby request and authorize Preferred Credit, Inc. (PCI) to initiate entries to debit my account on the due date for the minimum monthly payment amount shown on my monthly
periodic statement of account (or the next business day if the due date falls on a weekend or holiday) and as otherwise described below. This authority is to remain in full force and effect until PCI is
paid in full, or PCI has received written notification of its termination at 628 Roosevelt Road, St. Cloud, MN 56301 or I have notified my financial institution at least three business days before the
scheduled payment. In addition to the payment amount, I request and authorize PCI to initiate entries to debit my account to collect any incidental fees or charges that may be due on the
Agreement following maturity, as permitted by applicable law.
Bank/Financial Institution Name:
Account Type:

Name (Print):

Location (City, State):
Routing Number:

Account Number:

Signature:

X

Page 1 of 1

Rev. 10/19

FACTS

WHAT DOES PREFERRED CREDIT, INC. (“PCI”) DO
WITH YOUR PERSONAL INFORMATION?

Why?

Financial companies choose how they share your personal information. Federal law gives consumers the right to limit some but not all sharing. Federal law also requires us
to tell you how we collect, share and protect your personal information. Please read this notice carefully to understand what we do.

What?

The types of personal information we collect and share depend on the product or service you have with us. This information can include:
▪
▪
▪

How?

Social Security Number and income;
account balances and payment history; and
credit history and credit scores.

All financial companies need to share customers’ personal information to run their everyday business. In the section below, we list the reasons financial companies can share
their customers’ personal information; the reasons PCI chooses to share; and whether you can limit this sharing.

Reasons we can share your personal information

Does PCI share?

Can you limit this sharing?

Yes

No

For our marketing purposes –
to offer our products and services to you

Yes

No

For joint marketing with other financial companies

No

We don’t share

For our affiliates’ everyday business purposes –
information about your transactions and experiences

No

We don’t share

For our affiliates’ everyday business purposes –
information about your creditworthiness

No

We don’t share

No

We don’t share

Yes

Yes

For our everyday business purposes –
such as to process your transactions, maintain your account(s), respond to court orders and legal investigations, or
report to the credit bureaus

For our affiliates to market to you
For nonaffiliates to market to you

To limit our
sharing

▪

Mail in the form below

Please note:
If you are a new customer, we can begin sharing your information 30 days from the date we sent this notice. When you are no longer our customer, we continue to share
your information as described in this notice.
However, you can contact us at any time to limit our sharing.

Questions? Call 320-255-9784 or go to www.preferredcredit.com
Mail-in Form

Leave Blank
OR
If you have a joint account, your
choice(s) will apply to everyone on
your account unless you mark below.

Mark any/all you want to limit:

Name

Mail to:

❑ Apply my choices only to me.

Address

Preferred Credit, Inc.
628 Roosevelt Road
St. Cloud, MN 56301

❑ Do not share my personal information with Nonaffiliates to market their products and services to me.

City, State, Zip
Account #

Page 1 of 2

Page 2
Who we are
Who is providing this notice?

What we do

Preferred Credit, Inc.

How does PCI protect my personal
information?

To protect your personal information from unauthorized access and use, we use security measures that comply with federal law. These
measures include computer safeguards and secured files and buildings.

How does PCI collect my personal
information?

We collect personal information, for example, when you
▪
▪
▪

apply for financing or give us your contact information
provide account information or pay your bills
show your government-issued ID

We also collect your personal information from others, such as credit bureaus, affiliates, or other companies.
Why can’t I limit all sharing?

Federal law gives you the right to limit only
▪
▪
▪

sharing for affiliates’ everyday business purposes - information about your creditworthiness
affiliates from using your information to market to you
sharing for nonaffiliates to market to you

State laws and individual companies may give you additional rights to limit sharing. See below for more on your rights under state law.
What happens when I limit sharing for an Your choice will apply to everyone on your account unless you tell us otherwise.
account I hold jointly with someone else?

Definitions
Affiliates

Companies related by common ownership or control. They can be financial or nonfinancial companies.

▪
Nonaffiliates

Companies not related by common ownership or control. They can be financial and nonfinancial companies.
▪

Joint Marketing

PCI does not share with our affiliates

Nonaffiliates we share with can include direct marketing companies and the retailer named on your account

A formal agreement between nonaffiliated financial companies that together market financial products or services to you.

▪

PCI does not jointly market

Other important information

We follow state law if state law provides you with additional privacy protections. For example, if (and while) your billing address is in Vermont, we will treat your account as if you had exercised
the opt-out choice described above and you do not need to contact us to opt out. If you move from Vermont and you wish to restrict us from sharing information about you as provided in this
notice, you must then contact us to exercise your opt-out choice.

Page 2 of 2

